                                                                         OFFICE OF THE CHIEF
                                                                         FINANCIAL OFFICER

U.S. Department of Labor
                           Office of Inspector General—Office of Audit




                                                                         THE DEPARTMENT OF LABOR’S COMPLIANCE
                                                                         WITH THE IMPROPER PAYMENTS ELIMINATION
                                                                         AND RECOVERY ACT OF 2010 IN THE FISCAL
                                                                         YEAR 2012 AGENCY FINANCIAL REPORT




                                                                                                        Date:     March 15, 2013
                                                                                               Report Number:   22-13-014-13-001
Table of Contents
Assistant Inspector General’s Report ......................................................................... 1



Appendices
        Appendix A      Background………………………………………………… …………...17
        Appendix B      Objectives, Scope, Methodology, and Criteria ............................... 19
        Appendix C      Acronyms and Abbreviations ......................................................... 21
        Appendix D      OCFO Response to Draft Report ................................................... 23
        Appendix E      Acknowledgements ........................................................................ 35




                                          IPERA Compliance in the FY 2012 Agency Financial Report
                                                                      Report No. 22-13-014-13-001
                                     U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                       Office of Inspector General
                                               Washington, D.C. 20210




March 15, 2013

                       Assistant Inspector General’s Report


Mr. James L. Taylor
Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) and Office of
Management and Budget (OMB) Circular A-123 require federal agencies to reduce
improper payments and report annually on their efforts. OMB guidance specifies that
each agency’s Inspector General should review agency improper payment reporting in
the Agency Financial Report (AFR), and accompanying materials, to determine whether
the agency complied with IPERA.

Background

The Improper Payments Information Act of 2002 (IPIA), IPERA, and related regulations
require Federal agencies to systematically review their programs and activities to
identify those that may be susceptible to significant improper payments. In performing
this task, the Department of Labor (Department) reviewed applicable audit reports,
detailed risk assessments, budget documents and other materials, documenting
weaknesses or other issues potentially impacting the amount of improper payments, to
identify programs that may exceed the improper payments threshold for risk
susceptibility in Fiscal Year (FY) 2012. Specifically, the Department reviewed the
following programs:

   •   Unemployment Insurance (UI)
   •   Federal Employees Compensation Act (FECA)
   •   Black Lung Disability Trust Fund
   •   Energy Employees Occupational Illness Compensation
   •   Workforce Investment Act (WIA)
   •   State Unemployment Insurance & Employment Service Operations
   •   Other Grants (as a group)
   •   Payroll Costs
   •   Non-Payroll Costs



                                IPERA Compliance in the FY 2012 Agency Financial Report
                                                            Report No. 22-13-014-13-001
                                        1
                                                  U.S. Department of Labor – Office of Inspector General


Based on DOL’s FY 2012 risk assessment review, only the Unemployment Insurance
(UI) benefit program was identified to be susceptible to significant improper payments.
The WIA grant program is classified as susceptible to significant improper payments in
OMB’s former Circular A-11, Section 57, due to its annual level of expenditures;
however, the Department reported that its annual risk assessments have not supported
such a designation. All other DOL programs were determined not to be susceptible to
significant improper payments.

IPERA generally defines significant improper payments as $10 million of all program or
activity payments made during the FY reported and 2.5 percent of program outlays, or
$100 million. 1 For each program and activity identified, the agency is required to
produce a statistically valid estimate or an estimate that is otherwise approved by OMB,
of the improper payments and include such estimates in the accompanying materials to
the annual financial statements of the agency. 2

The agency is required to prepare a report on actions it took to reduce improper
payments for programs with significant improper payments. 3 The report must specify,
among other things: (1) a description of the causes of improper payments, actions
planned or taken to correct those causes, and the planned or action completion date of
actions taken to address those causes; and (2) program and activity-specific targets for
reducing improper payments that have been approved by the Director of OMB. 4

Objectives

Our objectives were to:

    A) determine whether the Department complied with all requirements of IPERA in its
       Improper Payments Information section in the FY 2012 Agency Financial Report
       (AFR);

    B) evaluate the Department’s accuracy and completeness of reporting; and

    C) evaluate the Department’s performance in reducing and recapturing improper
       payments.




1
  Public Law No. 11-204 Section 2(a)(3), 124 Stat. 2224-2225 (2020). However, with respect to fiscal years following
              th
September 30 of fiscal year 2013 as determined by OMB, that improper payments in the program or activity in the
preceding fiscal year shall be considered significant if they may have exceeded $10 million of all program or activity
payments made during that fiscal year and 1.5 percent of program outlays; or $100 million.
2
  Public Law No. 111-204 Section 2(b), 124 Stat. 2224, 2225 (2010).
3
  Public Law No. 111-204 Section 2(c), 124 Stat. 2224, 2225-2226 (2010).
4
  Public Law No. 111-204 Sections 2 (c ) (1) and (4), 124 Stat. 2224, 2225-2226 (2010).
                                            IPERA Compliance in the FY 2012 Agency Financial Report
                                                                        Report No. 22-13-014-13-001
                                                    2
                                                U.S. Department of Labor – Office of Inspector General


A. Compliance with IPERA

According to OMB guidance, compliance with IPERA means that the Department has:

    1. published its AFR for the most recent fiscal year (FY 2012) and posted that
       report and any accompanying materials required by OMB on the Department’s
       website;

    2. conducted a specific risk assessment for each program or activity that conforms
       with Section 3321 of Title 31 U.S.C (if required);

    3. published improper payment estimates for all programs and activities identified
       as susceptible to significant improper payments under its risk assessment (if
       required);

    4. published programmatic corrective action plans in the AFR (if required);

    5. published and has met, annual reduction targets for each program assessed to
       be at risk and measured for improper payments;

    6. reported a gross improper payment rate of less than 10 percent for each program
       and activity for which an improper payment estimate was obtained and published
       in the Performance Accountability Report (PAR) or AFR; and

    7. reported information on its efforts to recapture improper payments. 5

For the second straight year, the Department did not fully comply with IPERA. In
FY 2012, the Department complied with item numbers 1, 2, 4, and 7. Regarding item
number 3, while the Department published the required improper payment estimates for
the Unemployment Insurance (UI) and Workforce Investment Act programs, results from
recent OIG audits indicate that improvements are needed in the methodologies used for
those estimates.

The Department did not meet the annual reduction targets for the UI program – and
therefore was not in compliance with item number 5. The Department also did not
comply with item number 6, as the improper payment rate of 11.42 percent reported for
the UI benefit program exceeded the OMB target rate of 9.7 percent. OMB Circular
A-123, Appendix C, Part II.B states that for agencies that are not compliant for two
consecutive years for the same program or activity, the Director of OMB will review the
program and determine if additional funding would help the Department come into
compliance. If the Director of OMB determines that additional funding would help the
Department become compliant, the Department shall obligate an amount of additional
funding determined by the Director of OMB to intensify compliance efforts. When

5
 OMB Circular A-123, Management’s Responsibility for Internal controls, Appendix C, Part II, Compliance with the
Improper Payment Requirements, April 2011. As previously noted in this report IPIA has been amended by IPERA.
                                           IPERA Compliance in the FY 2012 Agency Financial Report
                                                                       Report No. 22-13-014-13-001
                                                   3
                                      U.S. Department of Labor – Office of Inspector General


providing additional funding for compliance efforts, the Department shall exercise
reprogramming or transfer authority to provide additional funding to meet the level
determined by the Director of OMB, and submit a request to Congress for additional
reprogramming or transfer authority if additional funding is needed to meet the full level
of funding determined by the Director of OMB.

Our specific findings for each IPERA requirement follow.

   1. Did the Department publish its AFR for the most recent FY and post that
      report and any accompanying materials required by OMB on the agency
      website?

       The Department published its AFR for FY 2012 on November 16, 2012. The
       report and accompanying materials required by OMB were posted on the agency
       website at:
       http://www.dol.gov/_sec/media/reports/annual2012/2012annualreport.pdf.

   2. Did the Department conduct a specific risk assessment for each program or
       activity that conformed with IPERA (if required)?

       The Department identified the UI program as susceptible to improper payments
       and conducted a specific risk assessment. The UI benefit program had annual
       improper payments exceeding both $10 million and 2.5 percent of annual
       program payments, or $100 million.

       The Department conducted a specific risk assessment for the WIA program
       because WIA is classified as susceptible to improper payments in OMB’s former
       Circular A-11, Section 57, due to its annual level of expenditures. The
       Department reported that its annual risk assessments have not supported such a
       designation; however, the OIG continues to recommend that the Department
       improve its methodology for estimating improper payments in the WIA program.
       See page 7 of this report for further discussion of this issue.

       The FECA program was not identified as susceptible to improper payments and
       no specific risk assessment was conducted. In making the determination that
       FECA was not susceptible to improper payments, the Department did not update
       its detailed testing, which was last done in 2008. As we have previously reported,
       the methodology FECA used in 2008 was not adequate and may understate the
       amount of improper payments. See pages 8 and 9 of this report for further
       discussion of this issue.




                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          4
                                  U.S. Department of Labor – Office of Inspector General


3. Did the Department publish improper payment estimates for all programs
   and activities identified as susceptible to significant improper payments
   under their risk assessments (if required)?

   The Department published improper payment estimates for the UI benefit
   program and WIA grants, as required.

   The UI Benefit Program’s estimated annual improper payments for 2012 were
   $10.3 billion, consisting of $9.75 billion in overpayments and $550 million in
   underpayments. For the WIA grant program, estimated annual improper
   payments were $7.5 million.

   See pages 7 and 8 of this report for further discussion of issues the OIG has
   identified regarding the methodology the Department used to determine the
   improper payment estimates for the UI and WIA programs.

4. Did the Department publish programmatic corrective action plans in the
    AFR (if required)?

   The Department published corrective action plans to reduce and collect improper
   payments. For the UI benefit program, the Department developed a Strategic
   Plan to address the root causes of improper payments. In September 2012, the
   Department awarded $169.9 million in supplemental funding to 33 states for the
   detection, prevention, and recovery of improper UI benefit payments. According
   to the Department, these incentive funds will support the states’ implementation
   of a number of high priority activities, such as the State Information Data
   Exchange System to enable more timely identification of separation issues
   (claimants ineligible because they voluntarily quit their jobs or were discharged
   for cause) and the Treasury Offset Program to offset federal income tax refunds
   against UI improper payments.

   For WIA grants, the Department indicated the major types of errors found in the
   WIA program were primarily administrative in nature, including cash
   management, sub-recipient monitoring, unallowable costs, and insignificant
   documentation for participant payments. ETA stated it is focusing its grant
   management and monitoring processes on these items to reduce and prevent
   improper payments. According to ETA, whenever deficiencies or problems are
   identified as a result of a desk review, onsite review, or an independent audit, the
   agency immediately begins working with the grantee to obtain appropriate
   corrective actions.




                              IPERA Compliance in the FY 2012 Agency Financial Report
                                                          Report No. 22-13-014-13-001
                                      5
                                   U.S. Department of Labor – Office of Inspector General


5. Has the Department published, and met, annual reduction targets for each
   program assessed to be at risk and measured for improper payments?

   The Department published, but did not meet the annual reduction targets for the
   UI benefit program. The target improper payment rate for the UI benefits program
   was 9.7 percent, but the Department reported an actual rate of 11.42 percent.

   For WIA grants, the Department published and met the annual reduction target.
   The target improper payment rate for FY 2012 was 0.44 percent. The
   Department reported an actual rate of 0.22 percent.

6. Did the Department report a gross improper payment rate of less than
   10 percent for each program and activity for which an improper payment
   estimate was obtained and published in the PAR or AFR?

   The Department reported an actual improper payment rate of 11.42 percent for
   the UI benefit program. The reported improper payment rate for WIA grant
   programs was 0.22 percent.

7. Did the Department report information on its efforts to recapture improper
   payments?

   The Department reported information on its efforts to recapture improper
   payments in the UI benefit and the WIA grants programs. For the UI benefit
   program, these efforts included: offsets from future benefits, state and federal
   income tax refunds, and lottery winnings; interstate recovery agreements;
   repayment plans; wage garnishments; property liens; and use of collection
   agencies.

   For the WIA grants program, the identification of overpayments for recovery is
   primarily done through onsite monitoring activities, as well as agency follow-up
   on Single Audit Act reports and OIG program audits. For questioned costs noted
   in Single Audit Act and OIG reports, the Grant Officer issues a Final
   Determination that identifies the costs that are actually improper. After the Final
   Determination is issued, it is referred to ETA’s accounting office to establish a
   debt. The ETA accounting office performs standard collection activities to collect
   the debt, and if it is unable to collect, the office refers the debt to Treasury for
   further collection efforts. In some cases, grantees with overpayments will adjust
   their drawdowns for future periods to reflect the fact that they have already
   received the funds to reimburse their subsequent grant expenditures.




                              IPERA Compliance in the FY 2012 Agency Financial Report
                                                          Report No. 22-13-014-13-001
                                      6
                                     U.S. Department of Labor – Office of Inspector General


B. Accuracy and Completeness of Reporting

  •   UI

      The Department estimates UI improper payment rates through the Benefit
      Accuracy Measurement (BAM) program, which is a statistical survey of paid and
      denied UI claims. States conduct comprehensive audits of samples of claims to
      verify claimant eligibility and determine the accuracy of decisions to pay or deny
      benefits. Recent OIG audit reports have identified concerns regarding how the UI
      improper payment estimate was determined. The methodology currently being
      used does not consider all payments for testing. The Department tests payments
      made in the state-funded UI, Unemployment Compensation for Federal
      Employees, and Unemployment Compensation for Ex-Service Members
      programs, but does not test payments from temporary or episodic programs,
      such as Emergency Unemployment Compensation or Extended Benefits.

      In FY 2011, the Department reported that UI outlays included $52.0 billion in
      Emergency Benefits and $11.7 billion in Extended Benefits. Payments under
      these programs were projected to remain high at $26.5 billion and $4.2 billion,
      respectively, in FY 2012. Because these large amounts of payments are not
      tested as part of the Department’s methodology for estimating improper
      payments, the estimate is likely misstated during periods when significant
      temporary programs are being funded, such as the last several years. The OIG
      recommended that the Department consider expanding the BAM sample to
      include all UI benefit payments regardless of funding source. By doing so, ETA
      would ensure that future overpayment estimates cover all UI programs, including
      any temporary federally-funded emergency programs that may be put into place.

      The Department is working to address this issue, and has engaged a contractor
      to conduct a comprehensive review of the BAM survey methodology. The study
      includes exploring the feasibility of integrating temporary and episodic federal
      programs, such as Extended Benefits, into the BAM survey.

  •   WIA

      For FY 2012, the Department used the same methodology to estimate the
      improper rate for the WIA grant program as was used in FY 2011. This
      methodology resulted in an estimated improper payment rate of 0.22 percent and
      estimated improper WIA payments of $7.5 million.

      In our prior year report, “The Department of Labor’s Compliance with the
      Improper Payments Elimination and Recovery Act of 2010 in the Fiscal Year
      2011 Agency Financial Report,” Report No. 22-12-016-13-001, issued March 15,
      2012, we questioned the methodology used in FY 2011 to compute WIA’s
      improper payments. The methodology relies primarily on questioned costs
      identified in OMB Circular A-133 Single Audit Act Reports (A-133 reports).
                                IPERA Compliance in the FY 2012 Agency Financial Report
                                                            Report No. 22-13-014-13-001
                                        7
                                               U.S. Department of Labor – Office of Inspector General


        However, A-133 audits typically do not project likely total questioned costs for the
        grant or entity audited, but simply report those questioned costs identified for the
        specific sample items reviewed during the audit. As a result, Single Audit Act
        reports do not provide a valid proxy for improper payments in the WIA grant
        program.

    •   FECA

        In a report issued in February 2012, 6 we found that the improper payments
        estimation method the Department used for FECA may not be sufficient to meet
        IPERA requirements. Specifically, the improper payment estimates reported in
        FYs 2005 to 2008 fluctuated widely, from $3.3 million in FY 2005 down to
        $722,000 in FY 2006, and then up to $2.6 million in FY 2007, and down again to
        $500,000 in FY 2008. These estimates appear to be low in comparison to the
        fraud and abuse found by DOL OIG investigations. For example, in FY 2008,
        DOL OIG investigations alone identified more than $6 million in restitution for
        FECA compensation. Additionally, in FY 2010, our audit work in the Office of
        Workers’ Compensation Program (OWCP) FECA match with SSA death records
        found more than $690,000 in improper payments; and DOL OIG investigations
        found more than $1.3 million in restitution for FECA fraud. Other OIGs, such as
        the U.S. Postal Service, have FECA cases as well that we did not quantify.
        Furthermore, OWCP’s methodology did not encompass all the risks associated
        with improper payments, such as those identified in the General Accountability
        Office’s February 2008 audit 7 — late or no notice of when claimants returned to
        work; late or no notice of when claimants or their survivors died; unverified
        self-reported data on wage earnings and other federal benefits; and inaccurate
        data from employing agencies.

        As part of its FY 2012 risk assessment, FECA managers reviewed the results of
        the “most recent detailed testing” of a random sample of FECA medical and
        compensation payments. Additionally, the Office of the Chief Financial Officer
        reviewed settled FECA fraud cases reported by the DOL OIG in Semiannual
        Reports to Congress for FYs 2009, 2010, 2011, and March 2012 (3.5 years of
        reports). The improper payment amount projected by the Department through
        analysis of the random sample of payments plus the estimated annual amount of
        improper payments due to fraud identified in Department of Labor OIG
        Semiannual Reports to Congress was well under OMB’s thresholds for an at-risk
        program.

        The “most recent detailed testing” the Department relied on was for the period
        July 1, 2007, to June 30, 2008 – the same testing with the same weaknesses it
        relied on for its FY 2011 risk assessment. The Department is planning to design

6
  “OWCP’s Efforts to Detect and Prevent FECA Improper Payments Have Not Addressed Known Weaknesses,”
Report No. 03-12-001-04-431, issued February 15, 2012.
7
  “Better Data and Management Strategies Would Strengthen Efforts to Prevent and Address Improper Payments,”
GAO-08-284, issued February 26, 2008.
                                         IPERA Compliance in the FY 2012 Agency Financial Report
                                                                     Report No. 22-13-014-13-001
                                                 8
                                          U.S. Department of Labor – Office of Inspector General


          a revised methodology for performing detailed testing of the FECA program as
          the basis for estimating an improper payment rate for the program. The
          Department should consider all the issues OIG has previously identified and
          reported as part of its design efforts.

C.       Performance in Reducing and Recapturing Improper Payments

     •    Unemployment Insurance

          While the Department has not yet been able to meets its goals for reducing
          improper payments in the UI program, it is making payment integrity a top
          management priority. For example, on September 27, 2012, the Department
          announced the award of approximately $169 million in supplemental budget
          requests to 33 states for projects related to program integrity and performance to
          address the root causes it believes are most likely to quickly reduce improper
          payments.

          For FY 2013, the Department is tracking state implementation of eight core
          strategies for lowering the rate of UI improper payments. Many states are already
          implementing or have implemented these strategies, and the Department plans
          to highlight best practices and encourage states to replicate what works.

          The eight core strategies are summarized below.

          1. State Quality Service Plan (SQSP) / Strategic Plan Development — The
             SQSP is intended to guide key management decisions, such as where to
             focus resources. The SQSP should focus state efforts to ensure
             well-balanced performance across the range of UI activities, including
             payment integrity.

          2. Business Process Analysis — States will engage in a business process
             analysis to identify areas of weakness and to set the stage for reengineering
             processes that will improve program integrity performance. The review must
             be conducted collaboratively by state staff and a qualified independent third
             party contracted by the state, and recommendations from this review should
             be included in the state's strategic plan to the extent feasible. This strategy is
             required for those states with a 2011 improper payment rate above
             10-percent that have received FY 2012 Supplemental Budget Requests.

          3. National Directory of New Hires (NDNH) Recommended Operating
             Procedures — For several years, the Department has encouraged states' use
             of the NDNH to reduce improper payments in the UI program. These new hire
             directories, which were created for the purpose of child support enforcement,
             have allowed for improved access to wage data and data from other states
             regarding new hires and wages. Detailed Recommended Operating


                                     IPERA Compliance in the FY 2012 Agency Financial Report
                                                                 Report No. 22-13-014-13-001
                                             9
                               U.S. Department of Labor – Office of Inspector General


   Procedures have been developed to provide states with information about
   best practices in conducting this match.

4. State Information Data Exchange System (SIDES) — SIDES is a web based
   system that allows electronic transmission of UI information requests from UI
   agencies to multi-state employers and/or third-party administrators, as well as
   transmission of replies containing the requested information back to the UI
   agencies. The current implementation of SIDES allows for the exchange of
   separation and earnings verification information.

5. SIDES Messaging — Implementation of products and tools designed for use
   by state UI agencies to communicate with employers and third-party
   administrators about the offerings and benefits of SIDES. This strategy is
   required for those states that have implemented SIDES by
   September 30, 2012, and received FY 2012 SBRs.

6. Claimant and Employer Messaging — Implementation of a statewide claimant
   and employer messaging campaign designed to:

   •   improve claimants' awareness of their responsibility to report any work and
       earnings if they are claiming benefits;
   •   improve claimants' understanding of work search requirements as a
       condition of eligibility for benefits; and
   •   improve employers' awareness of their responsibility to respond to state
       requests for separation information and/or earnings/wage verifications.

7. Employer Service Registration — Implementing technology or other solutions
   designed to address improper payments due to a claimant's failure to register
   with the state's Employment Service or job bank in accordance with the
   state's UI law. This strategy is required for those states with a 2011 Employer
   Service Registration error rate above 3 percent that received FY 2012 SBRs.

8. Treasury Offset Program — Implementing the U.S. Department of the
   Treasury's Offset Program to recover certain unemployment debts from
   Federal income tax refunds. This strategy is required for those states who
   have received FY 2012 SBRs.

While the Department has developed multiple and overlapping strategies to
address the root causes of improper UI payments, the strategies do not include
cost benefit analyses or anticipated return on investment for those strategies.
Without such information, it will be difficult for the Department to determine those
strategies that are working well and those that are not.

Additionally, as the Department notes in the Improper Payments section of the
AFR, states administer the UI program and set operational priorities. The

                           IPERA Compliance in the FY 2012 Agency Financial Report
                                                       Report No. 22-13-014-13-001
                                   10
                                              U.S. Department of Labor – Office of Inspector General


        Department has limited authority to ensure states pursue improper payment
        activities.

        For example, a recent OIG audit 8 found that the Georgia Department of Labor
        (GDOL) did not have adequate controls and systems in place to detect and
        recover UI benefit overpayments. GDOL had not timely implemented cross
        matching procedures with the NDNH database. Additionally, GDOL did not
        ensure the accuracy of data it used to report overpayment activities. Moreover,
        ETA had not defined an acceptable level of performance for measuring recovery
        activities. As a result, GDOL missed opportunities to detect and recover
        overpayments, and ETA could not ensure GDOL’s reported overpayment data
        were accurate or measure the effectiveness of GDOL’s recovery activities.

    •   WIA Grants and FECA

        As discussed earlier in this report, the Department has been unable to develop
        reliable estimates of the amount of improper payments in the WIA grant or FECA
        programs. Without reliable estimates, the OIG cannot adequately evaluate the
        Department’s performance in reducing and recapturing improper payments.

Previous Recommendations

Over the past two years, we have issued five reports with recommended actions the
Department should take to help it prevent and recover improper payments.

Report No. 03-12-001-04-431, “OWCP’s Efforts to Detect and Prevent FECA Improper
Payments Have Not Addressed Known Weaknesses,” issued February 15, 2012,
recommended that OWCP:

    •   develop a process for improper payment estimates that is compliant with IPERA;

    •   develop effective procedures, including seeking legislative authority to conduct
        matches with SSA retirement records, to ensure that claimants who receive SSA
        retirement benefits are identified timely and their FECA benefits are adjusted
        accordingly; and

    •   implement a requirement for training on improper payments for all claims
        examiners.

Report No. 18-12-001-03-315, “Recovery Act: ETA Is Missing Opportunities to Detect
and Collect Billions of Dollars in Overpayments Pertaining to Federally-Funded
Emergency Benefits,” issued January 31, 2012, recommended that ETA:


8
 “Georgia Department of Labor Missed Opportunities to Detect and Recover Unemployment Insurance
Overpayments,” Report No. 04-13-001-03-315, issued March 15, 2013.
                                        IPERA Compliance in the FY 2012 Agency Financial Report
                                                                    Report No. 22-13-014-13-001
                                                11
                                       U.S. Department of Labor – Office of Inspector General


   •   develop and implement a valid and reliable method for estimating the rate of
       detectable overpayments in the federally-funded emergency programs, or
       alternatively, consider expanding its sampling methodology to include all UI
       benefit payments regardless of funding source.

Report No. 22-12-016-13-001, “The Department of Labor’s Compliance with the
Improper Payments Elimination and Recovery Act of 2010 in the Fiscal Year 2011
Agency Financial Report,” issued March 15, 2012, recommended that the Department:

   •   consider methods for improving the WIA sampling methodology to provide a
       more complete estimate of improper payments, and include information on the
       limitations of the data used in the estimation of WIA overpayment in the AFR;
       and

   •   consider developing and including cost benefit and return on investment
       analyses for the various improper payment reduction strategies.

Report No. 04-12-001-03-315, “ETA Did Not Use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections,” issued September 28, 2012,
recommended that ETA:

   •   ensure the overpayment detection management information measure for
       Extended Benefits is implemented and accurately report detectable overpayment
       activities;

   •   ensure that states properly cross match BAM samples to NDNH;

   •   develop and implement clear guidance for states on properly conducting data
       validation;

   •   ensure all states conduct data validation for actual overpayment data as required
       by ETA Handbook 361;

   •   ensure regional offices perform effective monitoring of states’ efforts for
       conducting data validation properly; and

   •   ensure regional offices timely close reviews of the states’ sampled BAM survey
       cases used in their estimates of detectable overpayments.

Report No. 04-13-001-03-315, “Georgia Department of Labor Missed Opportunities to
Detect and Recover Unemployment Insurance Overpayments,” issued March 15, 2013,
recommended that ETA:

   •   ensure the Georgia Department of Labor has implemented NDNH cross
       matching for detecting overpayments;

                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          12
                                      U.S. Department of Labor – Office of Inspector General



   •   ensure the Georgia Department of Labor conducts data validation of
       overpayment data in accordance with ETA Handbook 361 requirements; and

   •   develop an acceptable level of performance for recovery of overpayments.

The above recommendations continue to be valid.

Chief Financial Officer’s Response to the Draft Report

The Chief Financial Officer’s (CFO) March 15, 2013, response to the draft report is
included in its entirety in Appendix D. In response to Section A, Compliance with
IPERA, finding 6, the CFO noted that ETA developed an alternative metric to measure
improper payments accounting for a “net” effect of Unemployment Payment Recoveries.
The alternative metric was approved by OMB for use beginning with FY 2013 IPIA
reporting. Using the alternative metric, the CFO stated the alternative IPIA rate would be
9.22 percent rather than the current rate of 11.42 percent.

The CFO also responded to Section C, Performance in Reducing and Recapturing
Improper Payments, UI, that informal cost analysis for strategies have been provided
where feasible, contending that performing formal cost benefit analysis would be time
consuming and expensive because many variables that affect improper payments limit
the usefulness of formal cost benefit analyses. Additionally, the CFO highlighted
numerous actions taken in response to the previous four of the five prior OIG reports
and their recommendations.

Lastly, the CFO commented, in response to OIG report 03-12-001-04-431 issued
February 15, 2012, that the methodology used to estimate the improper payment rate
for FECA is currently based on a statistically valid sample of payments for a fiscal year
and meets IPERA requirements.

Evaluation of the CFO Response to the Draft Report

Although the CFO used the recently approved alternative rate of 9.22 percent to
compare to the OMB target rate of 9.7 percent, the fact remains that DOL is still
non-compliant as the actual Improper Payment Rate for FY 2012 was 11.42 percent.
The OMB approved alternative rate does not apply to FY 2012, but instead is approved
to be used for FY 2013. As such, the UI rate again is non-compliant for two consecutive
years.

While DOL makes progress in taking corrective actions in response to our previously
reported findings, the OIG will evaluate these actions to determine if they have
successfully remediated the reported issues.




                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          13
                                   U.S. Department of Labor – Office of Inspector General


Finally, FECA’s methodology used to conduct its risk assessment in FY 2011 is the
same methodology used for FY 2012. This methodology did not include all known fraud
risk factors, and therefore we believe it to be an invalid risk assessment.

We appreciate the cooperation and courtesies that Departmental personnel extended to
the Office of the Inspector General during our work. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                               IPERA Compliance in the FY 2012 Agency Financial Report
                                                           Report No. 22-13-014-13-001
                                       14
                 U.S. Department of Labor – Office of Inspector General




Appendices




             IPERA Compliance in the FY 2012 Agency Financial Report
                                         Report No. 22-13-014-13-001
                     15
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




      IPERA Compliance in the FY 2012 Agency Financial Report
                                  Report No. 22-13-014-13-001
              16
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

IPERA became law on July 22, 2010. It amended the Improper Payments Information
Act (IPIA) of 2002. IPERA requires that each agency periodically review and identify all
programs and activities that may be susceptible to significant improper payments.
IPERA also significantly increased requirements for payment recapture efforts by
expanding the types of payments that must be reviewed and by lowering the threshold
of annual outlays that require agencies to conduct payment recapture audit programs.

OMB issued government-wide guidance for implementation of IPERA on April 14, 2011.
The guidance updated requirements for measurement and remediation of improper
payments. Agencies are required to report on improper payments and OIGs are
required to review agency reporting.

UI Benefit Program

The UI program is designed to provide benefits to individuals out of work, generally
through no fault of their own, for periods between jobs. In order to be eligible for
benefits, jobless works must show they were separated from work through no fault of
their own and met minimum length of time and wage requirements before they were
separated. The program is administered at the state level, but is funded by both state
and federal monies.

The UI program represents one of the largest benefit payment programs in the United
States. A total of about $90 billion of benefit payments were made to beneficiaries in
FY 2012.

WIA Grant Program

In FY 2012, ETA was appropriated $3.2 billion for the WIA Adult, Dislocated Worker,
and Youth programs. WIA adult employment and training services were provided
through formula grants to states and territories or through competitive grants to service
providers to design and operate programs for disadvantaged and often unemployed
persons. ETA also awards grants to states to provide reemployment services and
retraining assistance to individuals dislocated from their employment. Youth programs
are funded through grant awards that support program activities and services to prepare
low‐income youth for academic and employment success, including summer jobs.

FECA

The FECA Program provides wage-loss compensation and pays medical expenses for
covered federal civilian and certain other employees who incur work-related
occupational injuries or illnesses, as well as survivors benefits for a covered employee’s
employment-related death. The cost of federal workplace injuries, when measured by


                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          17
                                     U.S. Department of Labor – Office of Inspector General


FECA compensation costs for wage-loss, is nearly $3 billion and 2 million lost
production days annually.




                                 IPERA Compliance in the FY 2012 Agency Financial Report
                                                             Report No. 22-13-014-13-001
                                         18
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix B

Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to:

   A) determine whether the Department met all requirements of IPERA in its Improper
      Payments Information section in the FY 2012 AFR;

   B) evaluate the Department’s accuracy and completeness of reporting; and

   C) evaluate the Department’s performance in reducing and recapturing improper
      payments.

Scope

The Department, in accordance with IPIA, as amended by IPERA, was required to
include a report on improper payments in its FY 2012 AFR. The OIG conducted this
review in accordance with guidance issued by OMB Memorandum M-11-16 to
determine whether the Department was in compliance with IPERA.

Methodology

We reviewed the FY 2012 AFR – Improper Payment for compliance with the seven
items under IPERA the Department must meet in order to be in compliance with IPERA.
In addition, we:

   •   reviewed the Department’s FY 2012 AFR and accompanying material required
       by OMB on the Department’s website for compliance with IPERA;

   •   reviewed the program specific risks assessments that conforms with Section
       3321 of Title 31 U.S.C.;

   •   reviewed and evaluated the Department’s information on its efforts to recapture
       improper payments;

   •   reviewed and ensured the Department published improper payment estimates for
       all programs and activities identified as susceptible to significant improper
       payments under its risk assessments;

   •   reviewed the published programmatic corrective action plans in the AFR and any
       additional supplemental materials;


                                 IPERA Compliance in the FY 2012 Agency Financial Report
                                                             Report No. 22-13-014-13-001
                                         19
                                      U.S. Department of Labor – Office of Inspector General


   •   interviewed key personnel regarding the Department’s plan to meet the reduction
       targets and conduct recapture audits for UI and WIA; and

   •   obtained and verified data supporting key figures in the Agency Financial Report.

Criteria

We used the following criteria to perform this review:

IPERA (P.L. No. 111-204) (2010)

IPIA (P.L. No. 107-300) (2002)

OMB Memorandum 11-04, dated November 16, 2010, “Increasing Efforts to Recapture
Improper Payments by Intensifying and Expanding Payment Recapture Audits”

OMB Memorandum 11-16, dated April 14, 2011, “Issuance of Revised Parts I and II to
Appendix C of OMB Circular A-123”

OMB Circular A-123, Appendix C, Parts I and II, “Requirements for Effective
Measurement and Remediation of Improper Payments,” dated April 14, 2011

Executive Order 13520, dated November 20, 2009, “Reducing Improper Payments”




                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          20
                                  U.S. Department of Labor – Office of Inspector General



                                                                          Appendix C

Acronyms and Abbreviations

A-133 reports   OMB Circular A-133 Single Audit Act reports

AFR             Agency Financial Report

BAM             Benefit Accuracy Measurement

CFO             Chief Financial Officer

ETA             Employment and Training Administration

FECA            Federal Employees’ Compensation Act

FY              Fiscal Year

GDOL            Georgia Department of Labor

IPERA           Improper Payment Elimination and Recovery Act of 2010

IPIA            Improper Payments Information Act of 2002

NDNH            National Directory of New Hires

OCFO            Office of Chief Financial Officer

OIG             Office of Inspector General

OMB             Office of Management and Budget

OWCP            Office of Workers’ Compensation Program

PAR             Performance and Accountability Report

SBR             Statement of Budgetary Resources

SIDES           State Information Data Exchange System

UI              Unemployment Insurance

WIA             Workforce Investment Act



                              IPERA Compliance in the FY 2012 Agency Financial Report
                                                          Report No. 22-13-014-13-001
                                      21
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




      IPERA Compliance in the FY 2012 Agency Financial Report
                                  Report No. 22-13-014-13-001
              22
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix D
OCFO’s Response to Draft Report

Thank you for the opportunity to comment on the Department of Labor’s (DOL) Office of
Inspector General (OIG) Draft Report, “The Department of Labor’s Compliance with the
Improper Payments Elimination and Recovery Act of 2010 in the Fiscal Year 2012
Agency Financial Report” (Report No. 22-13-014-13-001) issued February 28, 2013.

Responses to OIG Comments/Recommendations Included in the Report

Unemployment Insurance Program

1. OIG Comment [p.5]:
6. Did the Department report a gross improper payment rate of less than 10 percent for
each program and activity for which an improper payment estimate was obtained and
published in the PAR or AFR?

      “The Department reported an actual improper payment rate of 11.42 percent for
      the UI benefit program.”

Response:
During Fiscal Year (FY) 2012, the Employment and Training Administration (ETA)
developed an alternative metric to measure improper payments that takes into account
the “net” effect of Unemployment Insurance (UI) overpayment recoveries. The
alternative metric was proposed to the Office of Management and Budget (OMB) for
their review and approval. On December 13, 2012, OMB informed ETA that it approved
the alternative rate methodology beginning with FY 2013 IPIA reporting. The alternative
rate includes the two components in the rate currently reported annually in the
Department’s Annual Financial Report (AFR) as part of Improper Payments Information
Act (IPIA) reporting requirements - total overpayments plus total underpayments - and
subtracts the amount of overpayments recovered by state workforce agencies.
    • Overpayments include fraud, non-fraud recoverable, and non-fraud non-
        recoverable overpayments.
    • Underpayments include benefits payable to the claimant and underpayments not
        payable due to state finality rules or other disqualifying issues.
    • Both the overpayment and underpayment rates include all improper payment
        causes.
    • Currently, the Department reports overpayment and underpayment rates
        estimated from the results of the Benefits Accuracy Measurement (BAM) survey.
        The alternative measure includes two components - improper payments, which
        will continue to be estimated from BAM, and overpayment recoveries, which are
        based on actual amounts reported by the state workforce agencies on the ETA
        227 Overpayment Detection and Recovery report for State UI, Unemployment
        Compensation for Federal Employees (UCFE), and Unemployment
        Compensation for Ex-Service Members (UCX).

                                 IPERA Compliance in the FY 2012 Agency Financial Report
                                                             Report No. 22-13-014-13-001
                                         23
                                        U.S. Department of Labor – Office of Inspector General


The following table summarizes the current BAM rate and the alternative BAM - 227
report rate for the 2012 IPIA reporting period (July 2011 to June 2012).

Current BAM and Alternative IPIA UI Improper Payment Rates
UI Improper Payment Rates                                                   2012 IPIA
                                                                              Rate
IPIA Rate (Current: Overpayment rate (OP) + Underpayment                     11.42%
rate (UP))
Alternative IPIA rate                                                         9.22%




On January 29, 2013, ETA published UI Program Letter (UIPL) No. 09-13 to provide
information regarding the alternative rate and establish two UI Performs core measures
for UI Integrity. The UIPL can be accessed at:
http://wdr.doleta.gov/directives/attach/UIPL/UIPL_9_13.pdf

Using the alternative rate methodology approved by OMB, the following targets have
been established for FY 2013 – FY 2015.

FY 2013 – FY 2015 Alternative IPIA Target Rates
                       FY 2013      FY 2014     FY 2015
Alternative IPIA        9.23%        9.13%       9.03%
rate

ETA has been aggressively promoting the use of the Treasury Offset Program (TOP) by states for
the recovery of UI overpayments. Currently, TOP has been implemented by 30 states and 17
states are in various stages of implementation. Using TOP, the total recoveries of overpayments
to date is over $265 million. ETA expects that the alternative metric, which takes into account
the overpayment recoveries, will help achieve the IPERA requirement that the Department
reports a UI improper payment rate below 10 percent in the future years.

2. OIG Comment, C. Performance in Reducing and Recapturing Improper Payments –
UI [pp. 8-10], Paragraph 2 [p.10]:

       “While the Department has developed multiple and overlapping strategies to
       address the root causes of improper UI payments, the strategies do not include
       cost benefit analyses or anticipated return on investment for those strategies.
       Without such information, it will be difficult for the Department to determine those
       strategies that are working well and those that are not.”




                                   IPERA Compliance in the FY 2012 Agency Financial Report
                                                               Report No. 22-13-014-13-001
                                           24
                                       U.S. Department of Labor – Office of Inspector General


Response:

ETA believes that it has provided informal cost benefit analysis for strategies, where
feasible. The strategies designed for reducing overpayments are focused on the areas
where states have the most control to reduce improper payments and where there is the
potential for the greatest impact. Performing formal cost benefit analysis for each
corrective action is time consuming and expensive and has the potential to delay
action. In addition, it is challenging due to the complexity of the UI program. The many
variables that affect improper payments limit the usefulness of a formal cost benefit
analysis in establishing a quantifiable link between any specific strategy and a reduction
in improper payments.

3. OIG Recommendation [pp. 10-11]
Report No. 18-12-001-03-315, “Recovery Act: ETA is Missing Opportunities to Detect
and Collect Billions of Dollars in Overpayments Pertaining to Federally-Funded
Emergency Benefits,” issued January 31, 2012, recommend that ETA:

       “Develop and implement a valid and reliable method for estimating the rate of
       detectable overpayments in the federally-funded emergency programs, or alternatively,
       consider expanding its sampling methodology to include all UI benefit payments
       regardless of funding source.”

Response:

Currently, UI improper payment rates are estimated based on the results of the Benefit
Accuracy Measurement survey, which includes payments from the State UI,
Unemployment Compensation for Federal Employees (UCFE), and Unemployment
Compensation for Ex-Service Members (UCX) programs, but does not include
Emergency Unemployment Compensation 2008 (EUC08), Extended Benefits (EB), and
Federal Additional Compensation (FAC) payments. However, because the claims
processes and eligibility requirements are very similar for the additional benefits paid to
unemployed individuals under the EUC08, EB, and FAC programs, the estimated
improper payment rates are assumed to generally reflect the accuracy of these benefit
payments.

ETA is conducting a comprehensive study of the BAM survey including exploring
whether the existing BAM sampling and estimation methodology can be expanded to
apply to future temporary federal programs.

A contractor was selected in September 2012 to assist with the study. The first kickoff
meeting with the contractor was held on October 15, 2012. On December 4, 2012, ETA
conducted a webinar to inform the states regarding the study and solicit their input.
During the past quarter, ETA worked closely with the contractor for the development of
the work plan. As part of this study, the contractor is conducting site visits with eight
selected states - Alabama, Delaware, Louisiana, Maine, Minnesota, Texas, Washington,
and West Virginia. These states were selected to ensure diversity with respect to
                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          25
                                       U.S. Department of Labor – Office of Inspector General


workload, UI payment integrity rate, and geography. The contract has begun these on-
site interviews and plans to complete them by April 2013. Through interviews with staff
and observations of the BAM investigation process in these states, the study team will
collect data on BAM procedures, gather insights on challenges and promising practices,
and document staff suggestions for program improvements. Based on the revised work
plan, the draft study report is now due by June 2013 and the final report is due by
September 2013.

Any modifications to the BAM survey will be based on the outcomes from the study.
Should it be determined that an expanded BAM program is feasible, implementation, if a
future temporary emergency program is enacted, depends on how that program is
structured and the extent to which administrative resources are available to support the
sampling and audit process for the new program.

4. OIG Recommendation [p.11]
Report No. 22-12-016-13-001, “The Department of Labor’s Compliance with the
Improper Payments Elimination and Recovery Act of 2010 in the Fiscal Year 2011
Agency Financial Report”, issued March 15, 2012, recommend that the Department:

       “Consider developing and including cost benefit and return on investment analyses for
       the various improper payment reduction strategies.”

Response:
ETA believes that it has provided informal cost benefit analysis for strategies for
reducing UI improper payments, where feasible.

Additionally, as stated in the ETA response to the OIG’s “Review of Report on Improper
Payments in the Unemployment Insurance (UI) Program (Report No. 22-10-020-03-
315)”, ETA’s strategies for reducing overpayments are focused on the areas where
states have the most control to reduce improper payments and where there is the
potential for the greatest impact. Performing formal cost benefit analysis for each
corrective action is time consuming and expensive and has the potential to delay action.
In addition, it is challenging due to the complexity of the UI program. The many
variables at play limit the usefulness of a formal cost benefit analysis. ETA believes the
better investment of our scarce resources is to actively collaborate with states to identify
those strategies that have the potential to have the greatest impact and to provide
technical assistance and support to states.

ETA conducted a cost-benefit analysis in 2012, which updated the methodology of a
cost-benefit analysis conducted in 2001. This analysis indicates that an additional $6.52
will be recovered for every $1 invested in state Benefit Payment Control (BPC)
activities, based on the inflation-adjusted average returns on investment for the period
FY 2001 to FY 2011. In addition to the methodology replicating the FY 2001 study,
regression models were constructed to identify variables with statistical associations
with UI overpayment detections and recoveries. The period of analysis was FY 2007 to
FY 2011 for all states and territories excluding the U.S. Virgin Islands. The model for UI
                                   IPERA Compliance in the FY 2012 Agency Financial Report
                                                               Report No. 22-13-014-13-001
                                           26
                                      U.S. Department of Labor – Office of Inspector General


overpayment detections indicates that estimated overpayments (from the BAM survey)
explained the largest proportion of the variance, followed by Extended Benefits (EB)
payments, and BPC funding. This indicates that state BPC operations can detect
additional overpayments as the pool of overpayments expands up to a point using
existing resource levels. The model indicates that agencies will establish a little more
than $5 in overpayments for every additional dollar in BPC funding they receive.

With respect to overpayment recoveries, the model suggests that recoveries are largely
a function of the pool of overpayments and the amount of those overpayments that the
agency establishes. The model also indicates that recoveries are unresponsive to
changes in BPC resource levels, although these resources are important to support
additional overpayment detections, which are in turn significant with respect to
recoveries.

5. OIG Recommendation [p.11]
Report No. 04-12-001-03-315, “ETA Did Not use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections”, issued September 28, 2012,
recommended that ETA:
       “Ensure that overpayment detection management information measure for EB is
       implemented and accurately report detectable overpayment activities.”

Response:
Please refer to ETA’s response provided to this report at:
http://www.oig.dol.gov/public/reports/oa/2012/04-12-001-03-315x.pdf

In November 2012, ETA began publishing the overpayment detection and recovery
management information measure on the Office of Unemployment Insurance (OUI)
Web site. Please see link below for reference:
http://oui.doleta.gov/unemploy/info_measures.asp

ETA believes the corrective actions related to this recommendation have been fully
addressed and requested the OIG close this recommendation.

6. OIG Recommendation [p.11]
Report No. 04-12-001-03-315, “ETA Did Not use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections”, issued September 28, 2012,
recommended that ETA:

      “Ensure that states properly cross match BAM samples to NDNH.”

Response:
Currently, all states including California are matching BAM cases with the National
Directory of New Hires (NDNH). California implemented the NDNH cross match for
BAM in December, 2012.



                                 IPERA Compliance in the FY 2012 Agency Financial Report
                                                             Report No. 22-13-014-13-001
                                         27
                                        U.S. Department of Labor – Office of Inspector General


ETA’s Regional Offices continue to conduct the biennial Methods and Procedures
review of the states’ BAM programs. This formal review and ongoing monitoring is used
to determine if the state agency's BAM operations are being administered in compliance
with BAM organizational and methodological requirements in the BAM State Operations
Handbook (ETA Handbook 395), including the NDNH requirements.

ETA believes the corrective actions related to this recommendation have been fully
addressed and requested the OIG close this recommendation.

7. OIG Recommendation [p.11]:
Report No. 04-12-001-03-315, “ETA Did Not use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections”, issued September 28, 2012,
recommended that ETA:

       “Develop and implement clear guidance for states on properly conducting data
       validation.”

Response:
Please refer to ETA’s response provided to this report at:
http://www.oig.dol.gov/public/reports/oa/2012/04-12-001-03-315x.pdf

In June 2012, National Association of State Workforce Agencies (NASWA)’s Information
Technology Support Center (ITSC) selected a contractor to conduct a comprehensive
assessment of the states’ UI Data Validation (DV) program. In the fall of 2012, in
consultation with ETA, the contractor developed an assessment plan. Currently, the DV
contractor has finished its field work and has prepared a draft assessment report, which
is being reviewed by OUI and ITSC staff; the final report is expected to be available in
March 2013. The report will contain updated DV status and 2013 outlook information on
all states. Based on an analysis of reasons states have given for their status, it will
contain recommended training, technical assistance and other steps to facilitate and
enable further progress in the DV program. The second phase of the contract will
address the training and technical assistance activities necessary to further assist states
with the DV program.

8. OIG Recommendation [pp.11-12]:
Report No. 04-12-001-03-315, “ETA Did Not use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections”, issued September 28, 2012,
recommended that ETA:
       “Ensure all states conduct data validation for actual overpayment data as required by
       ETA Handbook 361.”

Response:
Please refer to ETA’s response provided to this report at:
http://www.oig.dol.gov/public/reports/oa/2012/04-12-001-03-315x.pdf



                                   IPERA Compliance in the FY 2012 Agency Financial Report
                                                               Report No. 22-13-014-13-001
                                           28
                                         U.S. Department of Labor – Office of Inspector General


ETA continues to provide technical assistance to the states for the DV program. OUI
conducted a webinar on September 19, 2012 to provide technical assistance on the
changes to the ETA 227 report. In February 2013, ETA conducted a webinar on DV
Data Element Validation to facilitate state compliance with this important component of
UI DV.

9. OIG Recommendation [p.12]:
Report No. 04-12-001-03-315, “ETA Did Not use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections”, issued September 28, 2012,
recommended that ETA:
       “Ensure regional offices perform effective monitoring of states’ efforts for conducting
       data validation properly.”

Response:
Please refer to ETA’s response provided to this report at:
http://www.oig.dol.gov/public/reports/oa/2012/04-12-001-03-315x.pdf

ETA believes the corrective actions related to this recommendation have been fully
addressed and requested the OIG close this recommendation.

10. OIG Recommendation [p.12]:
Report No. 04-12-001-03-315, “ETA Did Not use Compatible Data Which Overstated
the Effectiveness of Its Overpayment Detections”, issued September 28, 2012,
recommended that ETA:

       “Ensure regional offices timely close reviews of the states’ sampled BAM survey cases
       used in their estimates of detectable overpayments.”

Response:
OUI will continue to work collaboratively with our Regional leadership and the BAM
coordinators to ensure that monitoring of BAM cases fully meets the requirements of ET
Handbook 396. OUI staff schedule quarterly conference calls with the Regional BAM
coordinators to provide guidance and technical assistance to improve the BAM
monitoring process.

ETA believes that it has taken the necessary actions to address this recommendation
and has requested for the OIG to close this recommendation.

11. OIG Recommendation [p.12]
Report No. 04-13-001-03-315, “Georgia Department of Labor Missed Opportunities to
Detect and Recover Unemployment Insurance Overpayments”, issued March 15, 2013,
recommended that ETA:

       “Ensure the Georgia Department of Labor has implemented NDNH cross matching for
       detecting overpayments.”

                                    IPERA Compliance in the FY 2012 Agency Financial Report
                                                                Report No. 22-13-014-13-001
                                            29
                                     U.S. Department of Labor – Office of Inspector General


Response:
Based on data provided by the Office of Child Support Enforcement, U. S. Department
of Health and Human Services, which administers the NDNH, ETA has documented
that the Georgia DOL began submitting files of UI payments for cross matching on April
4, 2008. The National Office has reviewed sample records from the files that the
Georgia agency submitted for NDNH matching and has verified that they meet the
specifications in UIPL No. 3-07 (October 11, 2006) and UIPL No. 3-07, Change 1
(February 27, 2008) for BAM NDNH matching.

ETA revised the Overpayment Detection and Recovery report (ETA 227) with the
publication of UIPL No. 8-12, issued January 11, 2012, to support the separate
reporting of UI overpayments detected through the NDNH and the State Directories of
New Hires (SDNH). Georgia began reporting NDNH and SDNH data on the June 2012
quarterly ETA 227 report. For the period April to December 2012, Georgia’s Benefit
Payment Control (BPC) operation detected over $300,000 in UI overpayments using
NDNH, nearly two-thirds of all overpayments detected through new hire matching.

While outside the audit period, ETA believes that it has completed all the corrective
actions necessary to ensure that the Georgia DOL has implemented NDNH cross
matching for detecting UI overpayments and has processes in place to ensure Georgia
DOL complies moving forward. We have requested that the final report reflect that ETA
has already addressed this recommendation.

12. OIG Recommendation [p.12]
Report No. 04-13-001-03-315, “Georgia Department of Labor Missed Opportunities to
Detect and Recover Unemployment Insurance Overpayments”, issued March 15, 2013,
recommended that ETA:

      “Ensure the Georgia Department of Labor conducts data validation of
      overpayment data in accordance with ETA Handbook 361 requirements.”

Response:
Georgia has submitted and passed the DV populations associated with the
overpayment data for Validation Year (VY) 2013 in accordance with ETA Handbook 361
requirements.

ETA has completed or initiated several actions to ensure that all state agencies fully
meet the requirements of the DV program including issuance of the UI DV Monitoring
Guide (ETA Handbook 412) on February 22, 2012, for establishing a vigorous
monitoring program to ensure the validity of DV results, conducting webinars to provide
technical guidance to states on changes to the DV software to reflect changes in the
ETA 227 Overpayment Detection and Recovery report, and contracting with National
Association of State Workforce Agencies’ ITSC to conduct a comprehensive
assessment of and support for UI DV, with particular emphasis on the validation of data
covering overpayments established, recovered, and reconciled that states report on the
ETA 227 report.

                                 IPERA Compliance in the FY 2012 Agency Financial Report
                                                             Report No. 22-13-014-13-001
                                         30
                                       U.S. Department of Labor – Office of Inspector General



Information on reasons for success will be disseminated to all states as best-practice
guidance. During the final phase of the project, the contractor will develop a Technical
Assistance Plan (TAP), which will include its recommended approach for delivering
training and technical assistance to all states, and specifically ensure that at least five
states are trained on DV methodology and ten states are provided technical assistance
in conducting DV tasks. The TAP will identify specific state needs, including grouping
the states by common conditions that can be addressed collectively. The plan will
identify recognized system-wide problems and develop solutions.

13. OIG Recommendation [p.12]
Report No. 04-13-001-03-315, “Georgia Department of Labor Missed Opportunities to
Detect and Recover Unemployment Insurance Overpayments”, issued March 15, 2013,
recommended that ETA:

       “Develop an acceptable level of performance for recovery of overpayments.”

Response:
ETA has met the recommendation with the publication of UIPL No. 9-13 on January 29,
2013. The UIPL establishes an acceptable level of performance (ALP) for recovery of
overpayments:

The Department conducted an analysis of the UI payment, overpayment detection, and
recovery data and established recovery targets of 55 percent for the 2013 IPIA reporting
period, and 58 percent for the 2014 IPIA reporting period. These targets were reviewed
by OMB and published in the Department’s FY 2012 AFR on page 181.

The performance period will be based on the ETA 227 and ETA 227 EUC data for the
IPIA period (July 1 to June 30 of the IPIA reporting year). The first measurement period
will be July 1, 2012 to June 30, 2013. States failing to meet the ALP for the 2013 IPIA
reporting period will be expected to develop a CAP as part of the FY 2015 SQSP.

ETA has requested that the OIG acknowledge in the report that ETA’s actions taken
prior to receipt of the report have fully responded to the recommendation.

Workforce Investment Act Grant Program

14. OIG Comment [p.7]
Report No. 22-12-016-13-001, “The Department of Labor’s Compliance with the
Improper Payments Elimination and Recovery Act of 2010 in the Fiscal Year 2011
Agency Financial Report”, issued March 15, 2012, commented that:

       “The methodology relies primarily on questioned costs identified in OMB Circular
       A-133 Single Audit Act Reports (A-133 reports). However, A-133 audits typically
       do not project likely total questioned costs for the grant or entity audited, but
       simply report those questioned costs identified for the specific sample items
                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          31
                                       U.S. Department of Labor – Office of Inspector General


       reviewed during the audit. As a result, Single Audit Act reports do not provide a
       valid proxy for improper payments in the WIA grant program. Due to the lack of
       information on likely questioned costs for individual grants, it is impossible for the
       Department to make a valid projection of total likely improper payment for all WIA
       grants.”

15. OIG Recommendation [p.11]:
Report No. 22-12-016-13-001, “The Department of Labor’s Compliance with the
Improper Payments Elimination and Recovery Act of 2010 in the Fiscal Year 2011
Agency Financial Report”, issued March 15, 2012, recommend that the Department:

       “Consider methods for improving the WIA sampling methodology to provide a
       more complete estimate of improper payments, and include information on the
       limitations of the data used in the estimation of WIA overpayment in the AFR.”

Response:
IPERA and OMB guidance require an overall estimate be made for the WIA program.
Since financial records and other documentation supporting WIA expenditures are
located at the grantee and sub-grantee locations rather than at DOL, direct sampling of
payments to derive a statistical projection is not practical and is cost prohibitive. The
Department uses an alternate OMB-approved methodology to estimate the improper
payment rate. This methodology is based on analysis of improper payments
(questioned costs) identified in (1) a statistically valid, stratified sample of A-133 audit
reports, (2) monitoring results reported by each of the six regional offices of the WIA
program, and (3) DOL OIG questioned costs for the three most recent years. The use
of non-statistical approaches is allowed by Circular A-123, Part C, with OMB approval.

DOL considered the option of selecting a nationwide, statistically valid sample of WIA
grantees and performing audits to estimate the improper WIA payment rate. In 2009,
the Department worked with the DOL OIG to design such an approach. DOL estimated
the cost to perform these audits would be several million dollars. Based on the high
cost to perform these audits, this option is not considered cost-effective.

DOL believes it is appropriate to use questioned costs in A-133 reports as a proxy for
improper payments for the WIA program. In addition, DOL augments the A-133 report
statistically valid estimate by including three-year moving averages of WIA questioned
costs identified in OIG reports and in regional monitoring reports. Use of a three-year
average for these items reduces the impact of anomalies that may occur in a given
year. All OIG reports which discuss WIA are analyzed, whether related to fraud or any
other basis of improper payments. Regional monitoring on-site reviews, quarterly
reviews, and desk reviews are based on assessed risk and improper payments reported
from these activities are included in the estimation of the improper payment rate.

The major types of errors found in the WIA program are primarily administrative in
nature. ETA focuses its internal grant management and regional monitoring processes
on administrative items to reduce and prevent improper payments. Whenever
                                   IPERA Compliance in the FY 2012 Agency Financial Report
                                                               Report No. 22-13-014-13-001
                                           32
                                     U.S. Department of Labor – Office of Inspector General


deficiencies or problems are identified, ETA works with the grantees on corrective
actions. In addition, ETA also reviews direct grantee A-133 reports and OIG reports for
questioned costs and follows through on resolution. The resolution status of these
questioned costs is considered in the estimation of the improper payment rate.

Although DOL believes questioned costs reported in A-133 reports are a valid proxy for
improper payments, DOL included information on the limitations of the data used in the
estimation of WIA improper payments in the Department’s FY 2012 AFR and continues
to seek ways to improve the methodology. Finding better ways to collect, analyze, and
incorporate more data on questioned costs and their resolutions are the key to
improving the accuracy of the estimated rate.

Preventing and recovering improper payments is a priority for DOL. The Department will
continue to integrate improper payment prevention strategies into the day-to-day
program operations and internal control processes to help reduce improper payments.

Federal Employees’ Compensation Act Benefit Program

16. OIG Comment [p7]:
Report No. 03-12-001-04-431, “OWCP’s Efforts to Detect and Prevent FECA Improper
Payments Have Not Addressed Known Weaknesses”, issued February 15, 2012, found
that:

       “The improper payments estimation method used for FECA may not be sufficient
       to meet IPERA requirements”.

Response:
The methodology used to estimate the improper payment rate for the Federal
Employees Compensation Act (FECA) program is currently based on a statistically valid
sample of payments for a fiscal year and meets IPERA requirements. However, the
Department is reviewing the methodology and will consider the additional factors noted
by the OIG, such as fraudulent payments.

Additionally, the Office of Workers’ Compensation Programs (OWCP) has requested
funding to establish an Integrity and Compliance Program to focus on the FECA
program. As a preparation for this initiative, OWCP will evaluate the use of Do Not Pay
Solution Data Analytics Services to determine if they provide additional value and would
be cost effective.



James L. Taylor
Chief Financial Officer




                                 IPERA Compliance in the FY 2012 Agency Financial Report
                                                             Report No. 22-13-014-13-001
                                         33
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




      IPERA Compliance in the FY 2012 Agency Financial Report
                                  Report No. 22-13-014-13-001
              34
                                      U.S. Department of Labor – Office of Inspector General



                                                                              Appendix E
Acknowledgements

Key contributors to this report were Joseph L. Donovan, Jr. (Audit Director), Orville
Hylton, Katherine Gers , and Bashar Chowdhury.




                                  IPERA Compliance in the FY 2012 Agency Financial Report
                                                              Report No. 22-13-014-13-001
                                          35
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

        Online:      http://www.oig.dol.gov/hotlineform.htm
        Email:       hotline@oig.dol.gov

        Telephone:   1-800-347-3756
                     202-693-6999

        Fax:         202-693-7020

        Address:     Office of Inspector General
                     U.S. Department of Labor
                     200 Constitution Avenue, N.W.
                     Room S-5506
                     Washington, D.C. 20210
